BECKER GALLAGHER
Briefs

and

DONNA
JULIE

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 unbound and
40 copies of the foregoing Petition for a Writ of
Certiorari in Office of Recovery Services v. John R.
Latham, were sent via Three Day Service to the U.S.
Supreme Court, and 3 copies were sent via Three Day
Service and e-mail to the following parties listed
below, this 21st day of October, 2019:
PAUL R. SMITH
JEFFREY D. GOOCH
C. MICHAEL JUDD
JONES WALDO

170 S. Main Street, Suite 1500
Salt Lake City, UT 84101-1644
(801) 521-3200
psmith@joneswaldo.com
j gooch@joneswaldo.com
mjudd@joneswaldo.com
Counsel for Respondent
SEAN D. REYES

Utah Attorney General

TYLER R. GREEN

Utah Solicitor General
Counsel of Record
STANFORD E. PURSER
Deputy Solicitor General
WILLIAM W. MILLER

TONY S. LEBLANC

Assistant Attorneys General
350 N. State Street, Suite 230
Salt Lake City, UT 84114-2320
(801) 538-9600
tylergreen@agutah.gov
Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

J. WOLF, J.D.

A. KERSHNER, J.D.

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on October 21, 2019.

Donna J. Wolf[ J
)
Becker Gallagher Legal P uolishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
February 14, 2023

